No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
J. SANTOS MONDRAGON-BENITEZ,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A

Judgment and Sentence of the United States District Court for the Northern
District of Texas

Appendix B

Judgment and Opinion of Fifth Circuit

APPENDIX A

Case 4:13-cr-00071-A Document 46 Filed 06/21/19

U.S. DISTRICT COURT

Page 1NORTHERN
of 3 PageID
189OF TllXAS
DISTRICT

FILED

IN THE UNITED STATES DISTRICT OURT
NORTHERN DISTRICT OF TEXA
FORT WORTH DIVISION

JUN 21 2019

CLERK, U.S. DISTRICT COURT

UNITED STATES OF AMERICA

By·--;;:::~--~----_ _!l_:~_Y

§

·----J

§

vs.

§

SANTOS MONDRAGON-BENITEZ

§
§

NO. 4:13-CR-071-A

JUDGMENT OF REVOCATION AND SENTENCE
Came on to be heard, as contemplated by Fed. R. Crim. P.
32.1, the motion of United States of America to revoke the term
of supervised release imposed on defendant, SANTOS MONDRAGONBENITEZ.

After having considered the grounds of the

government's motion, defendant's admissions, argument of counsel,
and defendant's statement, the court has determined that the term
of supervised release imposed on defendant should be revoked and
that defendant should be sentenced to a term of imprisonment of 2
years to be served consecutive to the sentence imposed on
defendant in Case No. 4:19-CR-015-A on June 21, 2019, in this
court.
The court finds and concludes that:
(a)

Defendant was given,

in a timely manner, written

notice of his alleged violations of the term of supervised
release upon which the motion to revoke is based;

Case 4:13-cr-00071-A Document 46 Filed 06/21/19

(b)

Page 2 of 3 PageID 190

The motion to revoke the term of supervised

release was served on defendant in a timely manner prior to
the hearing;
(c)

There was a disclosure to defendant, and his

attorney, of the evidence against defendant; and
(d)

The hearing was held within a reasonable time.

Other findings and conclusions of the court were stated by
the court into the record at the hearing.

The court adopts all

such findings and conclusions as part of this judgment.
In reaching the conclusions and making the determinations
and rulings announced at the hearing, and as stated in this
judgment, the court considered all relevant factors set forth in
18 U.S.C.

§

3553(a) that are proper for consideration in a

revocation context.
The court ORDERS, ADJUDGES, and DECREES that the term of
supervised release, as provided by the judgment in this case
signed and imposed November 1, 2013, be, and is hereby, revoked;
and
The court further ORDERS, ADJUDGES, and DECREES that
defendant, SANTOS MONDRAGON-BENITEZ, be, and is hereby,
committed to the custody of the United States Bureau of Prisons
to be imprisoned for a term of 2 years to be served consecutive

2

Case 4:13-cr-00071-A Document 46 Filed 06/21/19

Page 3 of 3 PageID 191

to the sentence imposed on defendant in Case No. 4:19-CR-015-A on
June 21, 2019, in this court.
The defendant is remanded to the custody of the United
States Marshal.
The date of imposition of the sentence provided by this
judgment is June 21, 2019.
SIGNED June 21, 2019.

District Judg

3

APPENDIX B

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10749
Summary Calendar

FILED
June 4, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
J. SANTOS MONDRAGON-BENITEZ,
Defendant-Appellant
Appeals from the United States District Court
for the Northern District of Texas
USDC No. 4:13-CR-71-1
Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM: *
Defendant-Appellant J. Santos Mondragon-Benitez has appealed the
district court’s judgment revoking his three-year term of supervised release
and imposing a 24-month sentence of imprisonment. He contends that the
district court relied on a prohibited sentencing factor under 18 U.S.C.
§ 3553(a)(2)(A)—the need for the sentence imposed to promote respect for the
law—when fashioning the revocation sentence.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-10749
Ordinarily, revocation sentences are reviewed under a “plainly
unreasonable” standard. United States v. Miller, 634 F.3d 841, 843 (5th Cir.
2011). When a claim of error has not been preserved, the plain error standard
of review applies. Puckett v. United States, 556 U.S. 129, 135 (2009). Because
Mondragon-Benitez’s claim fails even under the ordinary plainly unreasonable
standard, this court need not decide if the plain error standard applies here.
See United States v. Sanchez, 900 F.3d 678, 682 (5th Cir. 2018).
Pursuant to 18 U.S.C. § 3583(e), a district court may not rely on the
sentencing factors listed in § 3553(a)(2)(A), including the need for the sentence
imposed to promote respect for the law, when modifying or revoking a
supervised release term.

Miller, 634 F.3d at 844.

Mondragon-Benitez’s

assertion that the district court relied on the prohibited respect-for-the-law
factor is based on two oral statements made by the district court during the
revocation hearing: (1) that the district court had considered the issues
discussed in Mondragon-Benitez’s illegal reentry sentencing hearing, which
immediately preceded the revocation hearing and (2) that his repeated illegal
reentries were inexcusable and perhaps reflected his belief that the laws of the
United States were meaningless and that he could do whatever he wanted to
do.

According to Mondragon-Benitez, these statements establish that the

district court impermissibly relied on the need to promote respect for the law
when choosing a 24-month sentence, which was greater than the recommended
range of eight to fourteen months.
Mondragon-Benitez’s contentions are without merit. Not only did the
district court fail to expressly reference the prohibited factor, it also explicitly
noted that it had considered the sentencing factors under 18 U.S.C. 3553(a) “as
considered in a revocation context.” (emphasis added).

It also implicitly

referenced the permissible factors of deterrence and protection of the public.

2

No. 19-10749
These facts are enough to warrant our affirmance. See Sanchez, 900 F.3d at
684-85. But, even if the district court considered the prohibited factor, it was
not a dominant factor in the sentencing decision. No reversible error occurred.
See United States v. Rivera, 784 F.3d 1012, 1017 (5th Cir.), reh’g denied, 797
F.3d 307 (5th Cir. 2015).
Mondragon-Benitez has not shown that the revocation sentence was
plainly unreasonable. See Miller, 634 F.3d at 843.
The judgment of the district court is AFFIRMED.

3

